   Office of Forensic Auditing, Evaluation
   and Analysis
   Office of Inspector General
   U.S. General Services Administration


GSA Practices for Executive Performance
Recognition and Awards
Report Number JEF12-017-000
May 16, 2013
                 U.S. GENERAL SERVICES ADMINISTRATION
                 Office of Inspector General




MEMORANDUM FOR:                 DANIEL TANGHERLINI
                                ACTING ADMINISTRATOR ((A))

FROM:                           BRIAN D. MILLER
                                             ER
                                              R
                                INSPECTOR GENERAL (J)

DATE:                           May 16, 2013

SUBJECT:                        Final Report
                                GSA Practices for Executive Performance Recognition and Awards
                                Report Number JEF12-017-000



Please find attached the Office of Inspector General’s final report presenting the results of our review of
GSA’s practices for executive performance recognition and awards. Our findings are summarized in the
Executive Summary.

GSA’s written comments to the draft report are included in Appendix B of this report. If you have any
questions regarding this report, please contact me at 202-501-0450 or Patricia Sheehan, Director of the
Office of Forensic Auditing, Evaluation and Analysis at Patricia.Sheehan@gsaig.gov or 202-273-4989.

On behalf of the review team, I would like to thank you and your staff for your assistance during this
review.
Office of Inspector General


Attachment




                             1800 F Street, NW, Washington, DC 20405-0002
                                  Federal Recycling Program   Printed on Recycled Paper
Executive Summary

We reviewed the General Services Administration’s (GSA’s) practices for performance
recognition and awards for members of the Senior Executive Service (SES). Due to the
relationship between performance and bonuses, our review necessarily encompassed GSA
practices for evaluating SES members’ performance. The review covered the period FY2009
through FY2011, representing three performance appraisal cycles.

The Office of the Chief People Officer (OCPO) is responsible for the system for evaluating SES
performance and obtaining approval from the Office of Personnel Management (OPM). We
identified deficiencies in the GSA SES program that illustrate a willingness by GSA to violate
legal requirements that resulted in an opaque evaluation and award system, with a
manufactured process that failed to protect the rights of SES members, made review of the
validity of individual awards impossible, and impeded review of the overall program.

    1. Executive performance evaluation practices, which have a direct effect on performance
       awards, violated legal requirements by:
          • Failing to provide an initial summary rating to the executive before the rating was
              given to the Performance Review Board (PRB);
          • Failing to allow for higher-level review;
          • Failing to provide for PRB review of direct reports to the Administrator; 1
          • Not providing executives with a performance plan for the first seven months of
              FY2010;
          • Basing the FY2011 evaluation on predicted performance for the final one-and-a half
              months; and
          • Not publishing PRB membership in the Federal Register.
    2. SES award practices violated legal requirements through:
          • An SES Peer-2-Peer award program that supplemented the annual performance
              awards for executives; and
          • Multiple awards that were based on the same sustained performance that was
              recognized in the annual performance awards.
    3. The SES award policy is inadequate.
    4. GSA violated record retention requirements.
    5. GSA did not make accurate disclosures to OPM in that:
          • Annual SES award reporting to OPM was inaccurate for the three years reviewed;
              and
          • Actual evaluation practices were not disclosed in the 2011 request for certification.
    6. The SES award program was not accurately reported to Congress.

As explained in further detail in the report, we recommend the Chief People Officer (CPO) take


1
 Administrator, as used in this report, refers to both then-current and Acting Administrators during the period
FY2009-FY2011, unless specified otherwise.



JEF12-017-000                                                                                                1
appropriate corrective action. 2

Background

The objectives, scope, and methodology are discussed in Appendix A. We reviewed GSA’s
compliance with the SES performance management requirements of 5 U.S.C. §§ 4311 – 4315,
awards requirements of 5 U.S.C. §§ 4501— 4509, 5384, and record-keeping requirements of 5
U.S.C. § 4314(b)(3), (4). 3 OPM is assigned primary responsibility for evaluating an agency’s
executive performance appraisal system. As explained in the OPM SES Desk Guide,4
performance management holds executives accountable for their individual and organizational
performance. This is achieved through an effective performance management program that
incorporates the planning, evaluation, and reward of both individual and organizational
performance. Agencies must retain SES annual summary ratings and the performance plans on
which they are based for at least five years from the date the annual summary rating is issued.

As established by GSA orders, the GSA OCPO is responsible for compliance with laws,
regulations, and policies applicable to SES performance management, award compensation,
and record-keeping. 5

The legislation creating the Senior Executive Service in 1978 established the Performance
Review Board as an integral part of an agency’s executive performance management system. In
considering the underlying bill, the Senate Committee on Governmental Affairs identified a
need to “spell out in detail the process by which the Performance Review Board and Appointing
Authority would operate.” 6

The resulting statutes and implementing regulations gave executives a right to see and
acknowledge an initial summary rating, a right to submit a written response, and a right to a
higher-level review – all before the initial ratings are submitted to the PRB, which is to evaluate
the executives’ performance and accomplishments and in turn advise the appointing authority.
The statutes also defined the PRB’s responsibilities and makeup; record retention
requirements; and an SES program certification process administered by OPM.


2
  GSA did not exceed statutory, regulatory, or other mandatory limits with respect to the sums awarded to SES
members. This includes both limits on individual payouts and the amount agencies can pay out in the aggregate.
Moreover, during the review period GSA decreased its total executive award payout each year, complying with
Presidential and OMB/OPM mandates. GSA also made meaningful distinctions between performance awards
based on ratings.
3
  This review did not include the GSA OIG SES program, which operated independently.
4
   The OPM SES Desk Guide is updated annually as a working draft for executives and executive resource
practitioners. References to that Desk Guide in this report are to the 2011 version; relevant provisions cited in this
report also are found in the 2010 and 2009 Desk Guides.
5
  OCPO underwent transition during the period under review, particularly the Executive Resources Office (CX)
which saw changes in leadership and staff. CX performs numerous functions, including supporting the executive
appraisal and award process. That office was under SES direction throughout the review period.
6
  S. Rep. No. 95-969, at 2791, 2803 (1978).



JEF12-017-000                                                                                                       2
GSA identified two internal policies applicable to executive compensation for the FY2009-
FY2011 period: (1) GSA Order CPO P 9430.1, GSA Associate Performance Plan and Appraisal
System (APPAS) (Dec. 31, 2003); and (2) GSA Order CPO P 9451.1, GSA Associate Performance
Recognition System (APRS) (Jan. 31, 2005).

Findings

GSA violated many of the legal requirements for SES programs. Deficiencies fall into four
general categories: Evaluation Practices, Finding 1; Award Practices, Findings 2 and 3; Record
Retention Practices, Finding 4; and Reporting Practices, Findings 5 and 6.

Management generally agreed with the review findings and concurred with the
recommendations. See Appendix B for GSA management’s written response.


EVALUATION PRACTICES:
Finding 1 - Executive Performance Evaluation Practices Violated Legal Requirements

The statutory and regulatory scheme for evaluating SES performance creates a three-step
process. First, the rating official assigns the initial summary rating which is acknowledged by
the executive and, along with any response or higher-level review, sent to the PRB. Second, the
PRB considers the initial summary ratings, responses and higher-level reviewing officer
recommendations, and then makes recommendations to the Appointing Authority (at GSA the
Administrator). Third, the Administrator determines the final ratings upon consideration of the
recommendations from the PRB. 7

This three-step process was not followed; GSA instead omitted the first step and altered the
second step by restricting the role of the PRB. This non-compliance undermined the integrity of
the decisions regarding performance bonuses. As a consequence of this and other deficiencies,
GSA developed a manufactured process at odds with that provided by law.

Initial Summary Ratings: GSA failed to provide executives with initial summary ratings before
their ratings were considered by the PRB.

Under 5 U.S.C. § 4314(c)(2), supervisors must provide the PRB with “an initial appraisal of the
senior executive’s performance,” and the PRB must review “any response by the senior
executive to the initial appraisal” and conduct such further review as the Board finds necessary.
This must be done “[b]efore making any recommendations” to the rating authority (emphasis
added). See also 5 C.F.R. § 430.308. Pursuant to 5 U.S.C. § 4314(c) and GSA’s APPAS policy, the
PRB then submits recommended ratings to the Administrator.

7
 OCPO SES Performance Management Guidance (2009) at 3; see also 5 U.S.C. §§ 4311 – 4315; 5 C.F.R. § 430.308;
GSA Order CPO 9430.1 Ch. 2 § 7(c); OPM SES Desk Guide Ch. 5 (Sept. 2011).



JEF12-017-000                                                                                             3
In fact, GSA employed proposed ratings and deferred the assignment of the actual initial
summary ratings, or omitted them altogether, until after PRB deliberations. While OPM’s Desk
Guide (at 5-8) permits rating officials to share “proposed initial summary ratings” with “the next
level supervisor to help ensure that appraisals are being made in a uniform and equitable
manner,” GSA’s “proposed initial summary ratings” were not used for this purpose. The Desk
Guide requires agencies using proposed initial ratings to assign the initial summary rating and
comply with the notice and acknowledgement procedures before forwarding the initial rating
to the PRB. Contrary to 5 U.S.C. § 4314(c)(2), GSA supervisors were instructed to create
“proposed initial summary ratings” that should not be shared with the executive before being
forwarded to the PRB, as follows:

        IT IS IMPORTANT THAT RATING OFFICIALS NOT SHARE THESE PROPOSED INITIAL
        SUMMARY RATINGS WITH EXECUTIVES AT THIS STAGE OF THE PROCESS. 8

Further, for the most part GSA did not provide any ratings to the executives until after the
Administrator had approved them.9 Rating officials were instructed each year to document the
appraisals “in final” only after receiving the PRB’s “feedback,” and then conduct annual
performance reviews with executives. This feedback was based on the Administrator’s final
rating decisions. 10

Higher-Level Review: GSA failed to provide executives with any meaningful opportunity for a
higher-level review.

Under 5 C.F.R. § 430.308, the executive may request higher-level review before the initial rating
is given to the PRB. The higher-level review official then may recommend the same or a
different rating to the PRB and appointing authority, and the PRB must consider the executive’s
written comments and the findings from any higher-level review before making its written
recommendation to the appointing authority. Both OPM’s Desk Guide and GSA’s policy
additionally state that the Board should support its recommendations with a “written



8
  OCPO SES Performance Management Guidance (2009) at 3 (all emphasis in original). The “stage of the process”
referenced in the quote was the PRB’s review of the proposed ratings. GSA issued basically the same guidance in
FY2010 and FY2011.
9
  In a very few instances, rating officials gave executives proposed initial summary ratings before submitting them
to the PRB. By failing to comply with OCPO’s instructions, these rating officials actually complied with agency
policy and legal requirements.
10
   For example, the Administrator inserted herself in the PRB process for FY2011, and the final “PRB Ratings and
Bonus Recommendations” (dated October 31, 2011) in agency records actually reflect the Administrator’s own
rating decisions, not the PRB’s recommendations. The rating official only had the option of creating an “initial”
summary rating that aligned with the final summary rating. As another example, the FY2009 performance plans
that OCPO produced for this review generally showed initial summary ratings and final summary ratings were
recorded, if at all, on the same date. After FY2009, most performance plans did not even provide for an initial
summary rating. The FY2010 plan required the rating official and executive to sign only once, under a “Was the
plan met” category, and most FY2011 plans followed that format.



JEF12-017-000                                                                                                    4
justification” whenever the Board, an executive, or reviewing official disagrees with the rating
official.11

GSA circumvented this process by skipping the initial summary rating, the only event that
triggers an opportunity to request a higher-level review. While rating officials conducting
annual performance reviews were advised that “[e]xecutives are entitled to provide a written
response and/or request a higher-level review within 15 days from the date they are provided
with their appraisal,” 12 the entitlement to seek higher-level review already was meaningless.
The PRB had made its recommendations. Therefore, a higher-level review as outlined in the
regulations could not occur.

This is particularly significant because, pursuant to 5 C.F.R. § 430.308(f), SES members generally
cannot appeal performance appraisals and ratings. 13 A low rating can have immediate adverse
consequences, including removal from the SES.14

For the years under review, we found documentation of three instances where executives
requested higher-level review. The Agency’s response in each instance fell short of what was
legally required, because the requests could not occur until after the Administrator had
completed her review.

•    For ratings covering FY2010, two executives sought higher-level review once they were
     advised of their ratings – after the Administrator’s final review of the PRB’s
     recommendations.

     Both executives requested higher-level review within a few days of receiving their final
     ratings. In one instance, the rating official characterized the request as an “appeal” and
     gave the executive a single day to submit “your appeal,” rather than the 15 days provided
     under GSA policy for higher-level review requests. After five months, a higher-level review
     officer sustained both executives’ ratings and advised a recommendation would “not be
     sent to the Performance Review Board (PRB) or rating official to change your current
     rating.” This action – sustaining the ratings – would have exceeded the reviewer’s authority
     if review had been sought before the PRB received the initial summary rating.




11
    GSA Order CPO 9430.1 Ch. 2 § 8(b)(2); SES Desk Guide at 5-11. Annotated spreadsheets recording PRB
discussions reflect occasions when additional information was sought by the Board as it investigated the basis for a
“proposed” rating. However, the PRB’s draft recommendation to the Administrator did not contain written
justifications for the PRB’s recommendations in these circumstances.
12
   Internal email dated November 7, 2011 from CX regarding FY2011 SES Ratings and Bonuses.
13
   However, a career appointee may file a complaint with the Office of Special Counsel on any aspect involving a
prohibited personnel practice, and a career appointee removed because of a performance rating may request an
informal hearing before the Merit Systems Protection Board. SES Desk Guide at 5-9.
14
   5 U.S.C. § 4314(b)(3); see also 5 C.F.R. § 430.309(c); GSA Order CPO 9430.1 Ch. 2 § 11.



JEF12-017-000                                                                                                     5
       Because GSA’s practices circumvented that step, however, the executives were afforded a
       post-final rating process which only had the appearance, but not the benefits, of the
       process afforded by law.

•      For FY2011, one executive sought higher-level review of his rating. The process was
       delayed several months because the Agency could not locate a record of the executive’s
       appraisal and finally had to ask the executive to sign a page of a performance plan before
       his review could proceed. A higher-level review officer was selected and, this time, was
       instructed to prepare a report for the PRB. At the time of our fieldwork, however, the
       matter remained unresolved, and PRB members had not been notified that a higher-level
       review was pending. The PRB published in September 2011 has since been replaced; and
       as with the FY2010 “higher-level reviews,” the distinction between a post-final rating
       higher-level review and a prohibited appeal from a final rating is questionable.

PRB and Direct Reports: The OCPO did not provide proposed ratings for the Administrator’s
direct reports to the PRB for recommendations for any of the years under review, as required.
Rather, after the PRB completed its review of other executives’ ratings, the OCPO added ratings
for the direct reports to the overall recommendation to the Administrator. Therefore, 19 of
GSA’s 79 ratable executives were not reviewed for FY2009, 15 of 83 for FY2010, and 13 of 88
for FY2011.

As a result, the PRB could not discharge its responsibility for “assur[ing] consistency, stability,
and objectivity in the performance appraisal.” 5 U.S.C. § 4314(c)(5).

Performance Plans 2010: 5 C.F.R. § 430.305 requires that executives’ performance plans be
communicated to them at or before the beginning of the rating period.

GSA executives did not receive a performance agreement when FY2010 commenced. The
Administrator decided to revise executive performance plans and significantly change the
critical elements on which performance had been rated in FY2009 “to interrupt a lot of the
leadership behaviors we are living with.” 15 GSA policy recognizes that revised performance
plans may be appropriate “as a result of changes in organizational priorities or changes in
assignments.” APPAS, Ch. 1, § (5)(a), Ch. 2 § 10(a). GSA did not use the old FY2009 template
until a new plan was developed, however, and in the Administrator’s April 29, 2010, email she
determined that the new plan should not be applied retroactively, but rather should be set to
the remaining five months of the year to “avoid the silliness of pretending to do a plan for the




15
     Internal email dated April 29, 2010 from the Administrator regarding SES Performance Plans.



JEF12-017-000                                                                                      6
last seven months.” Therefore, executives had no performance plan for the first seven months
of that year.16

The deficiency is illustrated by one executive who spent the first part of the year in a different
position under another supervisor and received a poor rating. In that circumstance, “the [first]
supervisor must appraise the executive’s performance in writing before the executive leaves.”
5 C.F.R. § 430.307(b)(2). GSA’s policy similarly provides: “If an executive changes positions
within GSA during the appraisal period and if the executive has held his/her current position for
the minimum appraisal period of 120 days, an interim performance appraisal must be
prepared.” APPAS, Ch. 2, § 10(a)(1). The policy goes on to provide that, if requested by the
executive, the interim performance appraisal “is subject to review by a higher level official and
by the Performance Review Board.” Id. Because the executive was not placed on a performance
plan for the first part of the appraisal period, neither the executive’s response nor a higher-
level review was made available. The required process, at least, would have provided the
executive the assurance that the PRB considered the higher-level review official’s assessment of
the executive’s performance.

Performance Evaluations 2011: GSA effectively shortened the appraisal period by about a
month and a half in FY2011, but instructed supervisors to evaluate future, predicted work as
well. Under 5 C.F.R. §§ 430.303 – 304, appraisal periods must have an “established period of
time,” with a minimum of 90 days, and agencies may end the appraisal period after the
minimum “if there is an adequate basis on which to appraise and rate the senior executive’s
performance.” For GSA, that established period was one year and the minimum period was
120 days, as reflected both in its APPAS policy and its senior executive performance plans.

Rating officials were required to forward proposed initial summary ratings to OCPO for PRB
review by August 18, 2011, nearly a month and a half before the close of the performance
appraisal period, because the Administrator set a deadline for completing the executive
performance appraisals soon after the close of the fiscal year.

The OCPO advised supervisors to rate executive performance on work already performed,
predict the work that executives would perform for the duration of the period, and then rate
the executives based on both. GSA thus failed to appraise executives based on their
performance for the full appraisal period, and instructed that executives were to be rated in
part on conjecture.

Performance Review Board: Under 5 C.F.R. § 430.310(a)(4), agencies must publish notice of
PRB membership in the Federal Register “before service begins.” Notice of the agency’s PRB

16
   Moreover, the new FY2010 plan omitted the notice found in FY2009 plan which stated, “This evaluation has
been discussed with me and I have been given a copy. I am aware that if I decide to submit a narrative response
and/or request a higher level review, one or both must be submitted in writing within 15 workdays of my receipt
of my evaluation,” and replaced it with the statement, “Discuss Due Process with your supervisor or the Office of
Executive Resources.” The new plan also omitted any reference to the initial summary rating or final summary
rating.



JEF12-017-000                                                                                                  7
membership was published on October 3, 2006, but notice was not again published until
September 8, 2011. 17 Fewer than half of the members of the FY2009 18 and FY2010 Boards
were drawn from GSA’s published membership list (at the time, the 2006 version). 19


AWARD PRACTICES:
Finding 2 –SES Award Practices Violated Legal Requirements

Over the three-year period under review GSA gave out numerous awards to executives that
were impermissible. In all, 24 executives received 26 non-performance awards and 71
executives received 702 Peer-2-Peer performance awards, representing $160,700,20 with some
executives receiving multiple awards in addition to their performance awards. As discussed
below, we found systemic violations regarding these additional awards – an improper Peer-2-
Peer award program and instances where awards were duplicative, that is, they recognized the
same activity that was recognized in performance awards.

Peer-2-Peer Awards: GSA treated Peer-2-Peer awards as performance-based awards, which
would have had to be included with the annual performance bonus. That, however, did not
happen here, as the Peer-2-Peer awards were given separately and were not authorized by any
legal authority for performance-based awards.

For executives, performance awards are governed by 5 U.S.C. § 5384 and 5 C.F.R. §
534.405(a)(4), (f). An annual performance award for each executive must be considered by the
PRB, approved by the Administrator, and paid in a single lump sum. The “Peer-2-Peer
Recognition” awards violated each of these requirements in that the PRB did not consider
them, the Administrator did not approve them, and they were paid separately from the annual
performance bonus.

On July 13, 2010, the Administrator (via email) launched the Peer-2-Peer program to reward
leadership achievements; ultimately, a total of $70,200 was paid to 71 SES members. Under
this program, the Administrator’s executive leadership team members could cast votes for

17
   71 Fed. Reg. 58394 (Oct. 3, 2006); 76 Fed. Reg. 55677 (Sept. 8, 2011).
18
   A career SES member who was serving as Acting Administrator chaired the PRB for the FY2009 performance
period. The presence of the appointing authority on the PRB is inconsistent with the separation of functions in the
three-step appraisal process mandated by law.
19
   Under 5 U.S.C. § 4314(c)(4), PRB members are to be “appointed in such a manner as to assure consistency,
stability, and objectivity in performance appraisal,” and the appointments are to be made public in the Federal
Register. In recommending these provisions, the Senate Committee saw this requirement as an important
protection.
20
   This represents special act and Peer-2-Peer awards paid to SES members during FY2009-FY2011, including
members who left the executive service due to retirement, transition, etc. The total does not include Presidential
Rank awards (which are not approved by the agency) or annual performance awards for executives. We also
found internal communications referencing “spot awards” for executives, but were advised by OCPO that there
were no spot awards.



JEF12-017-000                                                                                                    8
peers who met award criteria. Internal documents reveal that these were performance plan
based awards that used performance categories “straight off the performance review but less
about the results section and more about the culture and growing leaders.” 21 In announcing
the program, the Administrator advised that a portion of the bonus funds was being “fenced to
you to reward your peers in recognition of their leadership behaviors.” 22 The award program
was initiated in conjunction with the new performance plan and provided a way to
“acknowledge each other’s progress through regular peer bonus voting.” 23

“Each ‘vote’ [would] trigger a monetary award drawn from the overall SES bonus pool
reserves.” Id. A single vote resulted in a $100 award. Award criteria consisted of five questions,
with one question announced and opened for a round of voting every two weeks on a shared
executive website:

                 Collaboration: Who runs terrific and productive meetings?
                 Who is great at grooming talent?
                 Who relishes and champions change?
                 Who gives me helpful peer executive feedback when I seek her/his counsel?
                 Who seeks and uses feedback from others? 24

Awards were paid out in aggregate lump sums – separate from the performance bonus – to
executive leadership team members, with one executive receiving $3,200 in peer awards,
representing 32 votes.

Despite being performance-based, the Peer-2-Peer awards were not evaluated by the PRB or
approved by the Administrator. We could not evaluate any of the 702 peer votes, as they did
not have to be justified or explained.

Management Comments:
GSA management asserts that GSA “structured” and “processed” the Peer-2-Peer awards as
Special Act awards that were limited to the demonstration of specific leadership qualities,
rather than SES performance awards based on SES performance plans. See Appendix B for
management’s full response.

OIG Response:
We disagree with management’s characterization of this unique award program.

Management comments do not cite authorities used to issue the Peer-2-Peer awards. In any
event, “the authorities GSA used” for awards are not dispositive of their legality, as we

21
   Internal email dated April 29, 2010 email from the Administrator regarding SES Performance Plans.
22
   Internal email dated July 13, 2010 from the Administrator to the Executive Leadership Team subject, Launching
Peer-2-Peer Recognition.
23
    Attachment to internal email dated April 29, 2010 email from the Administrator regarding SES Performance
Plans.
24
   The program appears to have ended before executives voted on the fifth question.



JEF12-017-000                                                                                                 9
demonstrate in Finding 2 with respect to GSA’s use of Special Act Awards to supplement annual
performance awards for those executives. Management’s comments do not state disagreement
with that Finding, nor do they offer any support for the assertions made.

Moreover, the Administrator’s own characterization of the Peer-2-Peer award program is
ignored by management when it states that these awards were not performance-plan based.
In launching the Peer-2-Peer program on July 13, 2010, the Administrator announced:

       We are dividing up the bonus funds. A large chunk is reserved for bonuses done in the
       familiar fashion through recommendations to me by your organizational leadership. The
       remaining portion, however, is being fenced for you to reward your peers in recognition
       of their leadership behaviors.

       It works like this. Every two weeks we will announce the criteria (chosen largely from
       the arena in the performance plan called “Leaders Grow Leaders” and “Leaders Shape
       Enterprise Culture.) (Emphasis supplied.)

Internal emails show that the Administrator was concerned with changing “the leadership
behaviors we are living with,” and peer awards would be used to recognize executives “for their
behavior or results commensurate with parts of the performance plan.” The award criteria
such as “grooming talent” and “runn[ing] terrific and productive meetings” related to the focus
on succession planning in the Leaders Grow Leaders section of the performance plan and
“meeting behaviors” in the Leaders Shape Enterprise Culture section.

In addition, we are in disagreement with management’s assertion that the Peer-2-Peer awards
were structured and processed in the manner of Special Act awards. Chapter 5, § 2 of APRS
policy on Special Act Awards provides that a “separate written justification is required, as well
as approval from the next higher level of supervision,” and that each award “justification must
be documented in the Awards System or on a Form 1291 if the award is over $5,000” (§2(c)(1)).
See also APRS, Chapter 1, § 6(a), cash awards under $5,000 “are to be approved by appropriate
officials, and documented in the awards system.” Management has provided no documentation
to show that SES peer awards were justified and approved by the next higher level of
supervision. In fact, the Administrator’s email announcing the Peer-2-Peer awards showed the
program was structured differently from Special Act Awards by providing that any executive’s
“vote on our shared site for your peers/colleagues” gave an award.

We also note that of the 702 individual peer awards given, none were documented as such in
GSA’s Comprehensive Human Resources Integrated System (CHRIS). Instead, only the
cumulative total of peer awards an executive received were documented (e.g., $2000 for 20
awards valued at $100 each). When awards were entered into CHRIS, moreover, a distinction
was made between Special Act and Peer awards. As a consequence, the SF 50 Notifications of
Personnel Actions for Peer-2-Peer awards generated by CHRIS were different from those used
for Special Act awards. The review found 26 SES members received Special Act awards. In all
but one of these, the action was identified as an Individual Cash Award NRB (non-rating based)



JEF12-017-000                                                                                 10
and also included a separate notation that the award was a “Special Act Award” with the
purpose of the award given. The SF 50s for Peer-2-Peer awards did not contain a similar
notation that they were Special Act awards. Nor was an SF 50 created for each award.

Multiple Awards for Same Performance: Congress has identified performance awards as a
primary incentive to “encourage excellence in performance by career [SES] appointees.” 25
Although SES members are also eligible for non-performance incentive awards under 5 U.S.C. §
4503, OPM’s Desk Guide explains that with respect to non-performance awards (pages 6-4 – 6-
5, emphasis added):

         An award may be used to recognize a contribution (e.g., service on a task force, a detail
         to other duties, or an extraordinary effort on a project not anticipated in the employee’s
         annual performance plan) or a scientific achievement that may have culminated after a
         significant period of time. These other forms of recognition should be considered for
         SES members only in those limited circumstances where a bonus would not be
         appropriate.

         Receiving one of these forms of recognition does not bar an executive from receiving a
         performance bonus, or vice versa. Each award must be judged on its own merits.
         However, agencies should give careful consideration before granting both a
         performance bonus and another award to an SES employee during the same year.

         Given the sensitivity associated with executive awards, agencies are encouraged to
         carefully document the reasons for the award to make clear that it is not being given in
         lieu of a performance bonus or in addition to a bonus for the same accomplishment.

Based on that language, both a performance award and a non-performance award in
recognition of the same sustained superior performance should not be given. Our review of
available documents compared the non-performance awards and the annual ratings-based
awards to determine whether GSA made improper duplicate awards in FY2009, the only year
awards could be evaluated. 26

Of the 12 executives who received special act awards in FY2009, GSA provided rating
documentation for only three. 27 In two instances the executives’ service in “acting” capacities

25
  5 U.S.C. § 5384(a)(1).
26
  For executives who received both an annual performance award and a special act award in FY2009, the review
evaluated, where available, the award justification and the rating official’s narrative. GSA’s performance plans for
FY2010-FY2011 did not require narratives for rating (which are the basis for annual performance awards). Without
documentation of the basis for the rating, our review could not determine whether there were duplicative awards
in 2010 and 2011.
27
  In only one of the performance years under review (2009) did GSA require rating officials to document their
reasons for ratings above or below a level 3. Even for that year, the Agency was unable to locate any fully
executed raters’ assessments (and no complete performance appraisals). However, the few documents for FY2009
provided to the OIG revealed issues with duplicative awards.




JEF12-017-000                                                                                                   11
was used as justification for $2,000 Special Act awards and also as partial justification for their
annual performance awards (an additional $16,000 and $18,000, respectively). In the third
instance, a career executive’s contributions to the Presidential Transition were justification for
a $6,000 Special Act award, and part of the justification for an additional $15,000 annual
performance award.

Executive performance over several months in an “acting” capacity was properly considered in
determining annual performance awards. A separate, special act award for the same service
not only disregarded OPM guidance, but violated 5 C.F.R. § 451.104(a)(3), which provides that
performance awards “may be paid to SES members only under” the SES performance award
authority and not under the separate authority for special act or other incentive awards. 28

Finding 3 –SES Award Policy is Inadequate

GSA does not have a clear policy for non-performance awards for SES members. As noted
earlier, GSA identified two orders regarding executive compensation: APPAS and APRS. APPAS,
GSA’s performance appraisal policy, sets forth the performance plan and appraisal system for
SES and non-SES members (as well as the process for granting performance awards to SES
members and the PRB’s role in that process).

Special act awards are governed by APRS, the performance recognition policy, which also
governs GSA’s performance awards for non-SES members. Although APRS states that it applies
to both non-SES and SES employees, the chapter dedicated to “SES Awards” is marked
“Reserved,” and the other chapters that address special act awards do not fit SES members. 29
Nor are SES awards included in the table of awards that is a part of the APRS policy.


RECORD RETENTION PRACTICES:

Finding 4 – GSA Violated Record Retention Requirements

The OCPO provided an incomplete response to the OIG’s document requests, explaining that
GSA’s record management and retention program is ineffective. Pursuant to 5 C.F.R. §
293.404(b), performance-related records for SES members shall be maintained for five years



28
   In addition, on September 11, 2012, in response to a request from a Member of Congress, GSA provided a table
with additional criteria for SES awards that included a requirement that special act awards be outside the SES
member’s annual performance plan. This specific requirement is not contained in the GSA policies identified to
the OIG.
29
    For example, while Chapter 5, Performance Recognition for Special Acts, indicates no restriction to non-SES
employees, that chapter limits special act awards to acts “that are not already covered under Individual or
Organizational performance” – referring to awards under other chapters that are limited to non-SES personnel.
Chapter 1, § 5, Awards for Non-SES Associates, similarly states that the provisions for special act and peer awards
apply only to non-SES employees.



JEF12-017-000                                                                                                   12
from the date the appraisal is issued. The failure to maintain records keeps the program
opaque and impedes quality assurance reviews.

GSA either did not create these records in the first place or did not keep them. Of the
documents that did exist, many did not have required signatures. For example, there were four
documents necessary to support the FY2009 performance appraisal process for each of the 80
ratable SES members: self-assessment, organizational assessment, rater assessment, and
performance agreement. The OCPO provided zero complete sets of fully executed documents
for FY2009; seven complete sets for FY2010; and zero again for FY2011. The deficiency in the
OCPO’s record-keeping practices is illustrated by the Agency’s failure to provide any fully
executed copies of the OCPO’s own SES members’ performance agreements, appraisals, and
ratings, as well as GSA’s inability to locate the executed rating documents for executives who
requested higher-level review. The OCPO had advised rating officials to send executed
appraisals to the Executive Resources office for the Official Personnel Files, but took no
corrective action when this was not done.

The Chief People Officer acknowledged that the OCPO has no viable records system in place for
executive resource materials and is noncompliant with statutory and regulatory requirements.


REPORTING PRACTICES:
Finding 5 – GSA Did Not Make Accurate Disclosures to OPM

GSA did not make accurate disclosures to OPM in that: annual SES award reporting to OPM was
inaccurate for the three years reviewed, and actual evaluation practices were not disclosed in
the 2011 request for certification.

Annual reports: Each year, OPM requires agencies to provide summary performance ratings,
pay, and awards data for executives and other senior personnel (the OPM Data Call). GSA
reported inaccurate SES data to OPM in each of the three fiscal years under review - 16 awards
were reported in the wrong fiscal year, one award was reported twice, and 57 awards went
unreported. While the Agency states that the errors were unintentional, they demonstrate the
need for internal controls to ensure the Agency’s responses to the annual data calls are
accurate.

Evaluation Practices: In its 2011 request for certification of its SES system, GSA failed to
disclose to OPM that the Agency’s actual appraisal practices contravened GSA’s cited policy.

In order to certify (or recertify) agency SES systems, OPM’s regulations require the systems to
meet defined criteria. The Administrator requested full certification for GSA’s SES system on
February 9, 2011. In support of this request, GSA provided OPM the December 31, 2003,




JEF12-017-000                                                                               13
APPAS policy and OPM’s October 29, 2004, approval of its appraisal system. 30 GSA stated:
“Since then, the agency has made no substantive changes to this system framework, which
contains all the requisite elements of current Pay for Performance requirements.” 31 While the
policy itself had not changed, GSA should have disclosed to OPM that it did not follow the
policy. 32

Similarly, in response to a question regarding internal verification of compliance with law and
regulation, the Agency cited a 2008 GSA Office of Human Capital Management evaluation that
found that “the SES performance management system was in compliance with the GSA internal
directive referenced above [APPAS], which is fully compliant with 5 USC 43 and Part 430 of the
CFR [sic].” As detailed above, this statement was not accurate.33 GSA’s failure to disclose its
actual practices fell short of the candor OPM should be able to expect when it performs its
mandatory oversight of agency executive systems.

Finding 6 – SES Award Program Not Accurately Reported to Congress

GSA’s recent response to a congressional request regarding the Agency’s award practices failed
to disclose the SES Peer-2-Peer award program. 34 Although GSA implemented the SES Peer-2-
Peer award program in July 2010 (discussed above), GSA failed to provide the documents that
establish the program to the Ranking Member of the Committee on Homeland Security and
Governmental Affairs. 35

Management Comments:
GSA management believes that GSA SES award practices information provided to Congress was
responsive to the specific questions asked and relied upon data that included the senior
executive peer awards. See Appendix B for management’s full response.

OIG Response:
We disagree with management’s assertion that information provided on SES awards to
Congress was responsive to the questions asked.

30
   Letter from Martha Johnson to John Berry (Feb. 9, 2011). In the letter, the Administrator notes that GSA’s
earlier certification expired December 2010 and that OPM had partially granted her request for an extension of the
earlier period through February 28, 2011, but denied a six-month extension. OPM’s initial review found
inadequacies in GSA’s SES performance plans; after revisions to those plans, OPM granted GSA a provisional
certification. Letter from John Berry to Martha Johnson (April 21, 2011).
31
   GSA 2011 Performance Appraisal Assessment Tool, Response to Question 1(c).
32
   Information provided during the review indicated that GSA’s non-compliant practices pre-dated the 2003 policy.
However, the origins of GSA’s practices were outside the scope of this review.
33
   The scope of this review did not encompass whether the 2008 internal review team knew that PRB practices
deviated from Agency policy and law at that time.
34
   Letter from Rodney P. Emery to the Hon. Susan M. Collins (dated Sept. 11, 2012).
35
   In its response, GSA identified a few executives as having received peer awards, but GSA provided the Ranking
Member only a table for “SES Awards” that excluded executive peer awards, along with the APRS policy that only
authorizes peer awards for non-SES personnel. The OIG previously advised GSA that this response excluded the
Peer-2-Peer awards.



JEF12-017-000                                                                                                  14
Questions 5, 6 and 7 asked for an explanation of the basis of awards for several former PBS
officials. Although GSA identified five executives who received Peer awards (separate from
Special Act awards), the basis for these awards was not provided. GSA’s Peer-2-Peer SES
awards were not covered by the APRS policy, and indeed a table of SES awards GSA provided in
response to Question 5 does not identify peer awards among those available for SES members.

Questions 8 and 9 asked for GSA’s award policies, both prior to April 2012, and any revised
policy since April 2012. GSA’s response included APPAS and APRS. Because GSA only
documented that individual executives received, by example, a Peer Award of $3,200, rather
than 32 awards valued at $100 each, the parameters of this award program were not apparent.
At the time, GSA knew there was another award policy that provided Peer-2-Peer awards to SES
members during the time period relevant to the Senator’s request. That policy, set forth in the
Administrator’s July 13, 2010 email, was not included.


Conclusion

GSA circumvented the basic executive appraisal process required by law and, instead,
employed practices that lack transparency and accountability. This created a system that denies
due process, fails to ensure the agency head receives the benefit of informed PRB
recommendations, made reviews of the validity of individual awards impossible, and impeded
review of the overall program.


Recommendations

The Chief People Officer should:

   1. Notify OPM of the results of this review.
   2. Establish compliance standards, training programs (including training programs for PRB
      members), and delegations of authority to ensure deficiencies identified in this report
      are not repeated.
   3. Develop and implement a clear and consistent policy for SES non-performance awards.
   4. Develop and implement controls over record-keeping and data reporting that comply
      with retention schedule requirements and support OPM data reporting requirements.




JEF12-017-000                                                                               15
Appendix A – Objectives, Scope, and Methodology

Objectives

The Office of Inspector General, Office of Forensic Auditing, Evaluation and Analysis,
commenced a formal review of the GSA’s non-salary executive compensation practices after
information developed in the course of our review of the 2010 GSA Western Regions
Conference suggested weaknesses in those practices, particularly with respect to cash awards
that might duplicate or supplement the annual performance awards granted executives. A
preliminary survey was unable to resolve what appeared to be anomalies between award
practices and GSA’s formal award policy. These anomalies included: (1) SF 50s that recorded
nonperformance awards without justifying language, (2) a nonperformance award for
performance that also was used to justify the executive’s annual performance award, (3)
indications of a special “peer” award program for executives who received awards as high as
$3,200 in addition to their annual performance awards, and (4) disparity between these
practices and the Agency’s actual award policy. The preliminary review also found that these
anomalies were not limited to executives responsible for the 2010 conference but appeared to
be more widespread.

The objectives of this review were (1) to evaluate whether the agency’s SES performance
recognition and award program adheres to applicable laws, rules, policies, and guidance and (2)
to evaluate the control structure of the GSA SES performance recognition and award program.
Due to the relationship between performance evaluations and bonuses, our review necessarily
encompassed GSA practices for evaluating SES members’ performance.

Scope

The review encompassed the periods FY2009 through FY2011, representing three complete SES
performance cycles. The entrance conference was held on July 25, 2012.

The Agency did not produce a complete set of documentation in response to our requests.
Production throughout the course of the review was piecemeal, often after repeated requests.
In one instance, we obtained documentation of proceedings before the Agency’s annual PRB
from an individual PRB member, after the OCPO was unable to provide that documentation.

Although we are unable to conclude that all documents responsive to our requests have been
provided, we do not believe it is necessary to pursue further assistance from the Acting
Administrator or to elevate the issue. As reported, the review identified overarching
deficiencies in the Agency’s executive performance review and recognition practices and the
need for correction before the PRB met to consider appraisals, ratings, and awards for the
recently concluded performance cycle. As such, the Acting Administrator was apprised on
September 4, 2012, and again on November 13, 2012, and advised a formal report that
addressed all findings would follow.




JEF12-017-000                                                                               16
Methodology

To accomplish our objectives, we:
    • Requested and reviewed, to the extent provided:
        GSA’s response to the annual SES data call from the Office of Personnel
         Management (OPM) for FY2009, FY2010, and FY2011.
        All GSA policies, procedures and practices in effect at any time from October 1,
         2008, through the present that address, authorize, support, or are relevant to
         compensation or any type of award available to SES members for performance or
         any other reason, including the SES performance appraisal system and any other
         GSA recognition program.
        All documents showing, proposing, justifying, recommending for or against,
         approving, or rejecting SES performance cash awards, bonuses, and any other
         awards, however denominated, to individual executives for the 2009, 2010, and
         2011 SES performance periods. The documents requested included, but were not
         limited to, electronically stored information on automated tools and documents
         related to individual executive compensation under GSA’s SES performance
         appraisal system, as well as under any other GSA recognition program.
    • Conducted meetings, interviews, and/or corresponded with:
          GSA OCPO Personnel;
          Former PRB members;
          Former PRB Chair;
          OPM Personnel; and
          OIG Office of Administration Personnel.
    • Obtained and reviewed:
          The OPM SES Desk Guide;
          GSA Orders;
          Statutes; and
          Rules and regulations.
    • Accessed documentation in GSA systems, including:
          Google Docs;
          Lotus Notes;
          CHRIS;
          PAR; and
          Email.




JEF12-017-000                                                                         17
Appendix B - Mangagement Comments

                                    Received on:




JEF12-017-000                                 18
Appendix B - Mangagement Comments


as to which authorities GSA used to issues those awards. Contrary to the findings in the
Report, GSA structured the peer awards as Special Act awards (i.e., individual cash
awards, not based on ratings) and processed them in that manner. The criteria for the
peer awards were limited to the demonstration of specific leadership qualities and were
not based on senior executive performance plans or annual appraisals of performance.
The information on SES awards provided to Congress was responsive to the specific
questions asked and relied upon data that included the senior executive peer awards.

Nonetheless, OCPO recognizes the need to establish a clearer policy for senior
executive awards that better distinguishes performance awards based on annual
appraisals from other cash awards, including the criteria and documentation required for
each. To that end, OCPO is reviewing and will revise the GSA Associate Performance
Plan and Appraisal System (APPAS), and the Associate Performance Recognition
System (APRS) to improve guidance. As stated before, GSA has discontinued these
awards and has no plans to engage in similar award programs.

We are also improving the process to collect and maintain performance management
records. Going forward, OCPO will conduct a program and process review of the
Agency’s executive resources program to ensure that clear management controls and
responsibilities are in place across GSA. To ensure compliance with the regulation
regarding the retention requirements for senior executive performance-related records,
OCPO will provide the Heads of Services and Staff Offices (HSSOs) and the Regional
Administrators (RAs) with a written copy of the requirements. The APPAS and APRS
orders will also be amended to include the retention requirements for performance-
related records. OCPO will also obtain legal review on all written guidance and policies
related to the senior executive appraisal process and recognition.

In addition to improving the performance appraisal process for senior executives, we
are taking substantial steps to ensure that awards for senior executives recognize
exemplary performance that goes above and beyond the basic expected level of
performance. In furtherance of this goal, GSA reduced the senior executive bonus pool
by 85% for the FY 2012 performance cycle.

Upon submitting this response, the Agency will notify OPM of the findings in the Report
and will work with OPM as we continue to make changes to improve our program.

Thank you for working with us throughout the review. I look forward to our continued
partnership.




JEF12-017-000                                                                              19
